Nos. 19-267 & 19-348

 

IN THE

Supreme Court of the United States

OuR LADY OF GUADALUPE SCHOOL,

Petitioner,
Vv.

AGNES MorRISSEY-BERRU,
Respondent.

St. JAMES SCHOOL,

Petitioner,
Vv.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF KRISTEN BIEL,

Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF THE NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUNDATION, INC. AS
AMICUS CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,864 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
